APPLICATION AND
SOLICITATION
DISCLOSURE
VISA STEEL/VISA STEEL REWARDS/VISA STEEL SHARE
SECURED/VISA STEEL SHARE SECURED REWARDS
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Steel

0.00%

Introductory APR for a period of six billing cycles.

8.98% to 17.98%

, based on your
After that, your APR will be
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Steel Rewards

11.98% to 17.98% , when you open your account, based on your

creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Steel Share Secured

0.00%

Introductory APR for a period of six billing cycles.

After that, your APR will be
based on the Prime Rate.

5.98%

. This APR will vary with the market

Visa Steel Share Secured Rewards

8.98%

This APR will vary with the market based on the Prime Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

10421077-MXC10-P-1-111617 (MXC101-E)

12

APR for Balance Transfers

Visa Steel
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 8.9% to 17.98% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Steel Rewards
11.9% to 17.98% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Steel Share Secured
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 5.98% . This APR will vary with the market
based on the Prime Rate.
Visa Steel Share Secured Rewards
8.98%

APR for Cash Advances

This APR will vary with the market based on the Prime Rate.
Visa Steel
8.98% to 17.98% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Steel Rewards
11.98% to 17.98% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.
Visa Steel Share Secured
5.98%
This APR will vary with the market based on the Prime Rate.
Visa Steel Share Secured Rewards
8.98%
This APR will vary with the market based on the Prime Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

10421077-MXC10-P-1-111617 (MXC101-E)

Penalty APR and When it Applies

Visa Steel
17.99%
Visa Steel Rewards
17.99%
Visa Steel Share Secured
17.99%
Visa Steel Share Secured Rewards
17.99%
This APR may be applied to your account if you:
- Make 3 consecutive late payments.
How Long Will the Penalty APR Apply? If your APRs are increased for this
reason, the Penalty APR will apply until you make six consecutive minimum
payments when due.

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
If you are charged interest, the charge will be no less than $0.01.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
None
1.00% of each transaction in U.S. dollars
None
Up to $20.00
None
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - Visa Steel, Visa Steel Share Secured:
The Introductory APR for purchases and balance transfers will apply to transactions posted to your account during the first
six months following the opening of your account. Any existing balances on OE Federal Credit Union loan or credit card
accounts are not eligible for the Introductory APR for balance transfers.
Loss of Introductory APR:
We may end your Introductory APR for purchases and balance transfers and apply the Penalty APR if you are 60 days
late in making a payment.
Application of Penalty APR:
Your APR may be increased to the disclosed Penalty APR if you are 60 days late in making a payment.
Minimum Interest Charge:
The minimum interest charge will be charged on any dollar amount.
Effective Date:
The information about the costs of the card described in this application is accurate as of: March 23rd,2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

10421077-MXC10-P-1-111617 (MXC101-E)

For California Borrowers, the Visa Steel, Visa Steel Rewards, Visa Steel Share Secured and Visa Steel Share
Secured Rewards are secured credit cards. Credit extended under this credit card account is secured by various
personal property and money including, but not limited to: (a) any goods you purchase with this account, (b) any
shares you specifically pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you
have in any individual or joint account with the Credit Union excluding shares in an Individual Retirement
Account or in any other account that would lose special tax treatment under state or federal law, and (d)
collateral securing other loans you have with the Credit Union excluding dwellings. Notwithstanding the
foregoing, you acknowledge and agree that during any periods when you are a covered borrower under the
Military Lending Act your credit card will be secured by any specific Pledge of Shares you grant us but will not be
secured by all shares you have in any individual or joint account with the Credit Union. For clarity, you will not be
deemed a covered borrower if: (i) you establish your credit card account when you are not a covered borrower;
or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$20.00 or the amount of the required minimum payment, whichever is less, if you are 10 or more days late in making a
payment.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Rush Fee:
$25.00.

IOANUNB.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

10421077-MXC10-P-1-111617 (MXC101-E)

